<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-245]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-245

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 5, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-902 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 5, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
    Prepared statement, August 5, 2015, 2 p.m....................   112
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Cardin, Hon. Benjamin L. U.S. Senator from the State of Maryland, 
  prepared statement.............................................   133

                               LEGISLATION

Text of S. 1324, the Affordable Reliable Electricity Now Act of 
  2015...........................................................    21
Text of the amendment #4 offered by Senator Markey...............    36
Text of the amendment #1 offered by Senators Gillibrand and 
  Markey.........................................................    45
Text of the amendment #1 offered by Senator Merkley..............    61
Text of the amendment #2 offered by Senator Whitehouse...........    95
Text of the amendment #6 offered by Senator Markey...............   100
Text of the amendment #1 offered by Senator Whitehouse...........   106
Text of S. 1500, the Sensible Environmental Protection Act of 
  2015...........................................................   114
Text of H.R. 2131, to designate a Federal building and courthouse 
  in South Carolina as the J. Waties Waring Judicial Center......   119
Text of S. 1523, to amend the Federal Water Pollution Control Act 
  to reauthorize the National Estuary Program, and for other 
  purposes.......................................................   121
S. 1707, to designate a Federal building in Arkansas as the Jacob 
  Trieber Federal Building, United States Post Office, and United 
  States Court House.............................................   125
H.R. 2559, to designate the PFC Milton A. Lee Medal of Honor 
  Memorial Highway in the State of Texas.........................   127
Committee Resolutions:
    Alteration, 1800 F Street Building, Presidential Transition 
      Team, Washington, DC.......................................   129
    Design, Federal Bureau of Investigation, San Juan, PR........   130
    Design, Jacob K. Javits Federal Office Building, New York, NY   131
    Replacement lease, Federal Communications Commission, 
      Washington, DC.............................................   132

                          ADDITIONAL MATERIAL

Articles:
    The Wall Street Journal, May 26, 2014, The Myth of the 
      Climate Change `97%'.......................................    68
    The New York Times, January 30, 2015, Most Republicans Say 
      They Back Climate Action, Poll Finds.......................    77
    The Wall Street Journal, June 18, 2014, Obama Carbon Rule 
      Backed by Most Americans--WSJ/NBC Poll.....................    80
Letters:
    American Sustainable Business Council........................     4
    American Lung Association et al..............................     6
    Public Citizen et al.........................................     8
    Adirondack Mountain Club et al...............................    11
    California Association of Sanitation Agencies................    14
    Earthjustice et al...........................................    17
    American Association for the Advancement of Science et al....    57

Who Opposes Efforts to Undermine Clean Water Act Permitting for 
  Direct Pesticide Applications?.................................    16
Gallup Poll--March 12, 2015......................................    73
Memo from Public Policy Polling..................................    82
NRDC Fact Sheet, July 2013.......................................    90
 
                            BUSINESS MEETING

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
406, Dirksen Senate Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Vitter, Barrasso, Capito, Crapo, 
Boozman, Wicker, Fischer, Rounds, Sullivan, Boxer, Carper, 
Cardin, Whitehouse, Merkley, Gillibrand, and Markey.
    Senator Inhofe. Our meeting will come to order.
    We are going to start by recognizing Senator Boxer for a 
special presentation.
    Senator Boxer. Thank you, Mr. Chairman, for a very special 
presentation.
    Before we get into the difficult arguments that await us, I 
thought I would take a minute to mark the fact that we worked 
so well together on a transportation bill that was very 
difficult to put together.
    When it got to the floor, we had to make more changes, and 
it took a lot of work on the part of the staff, but I have to 
say, Mr. Chairman, it was your leadership in marking up the 
bill here first and working with us and all of us to get a 20 
to 0 vote that I think should be marked today by a special gift 
that we have bought for you, if you would accept that.
    Senator Inhofe. I will accept it.
    Senator Boxer. It is not a trick. I think you will like it.
    Senator Inhofe. Oh, I will. Oh, my goodness.
    Senator Boxer. See all those bridges on there?
    Senator Inhofe. Yes.
    Senator Boxer. It is a towel with a lot of bridges. They 
are the ones that are structurally deficient, and we are going 
to fix them.
    Senator Inhofe. It reminds me of my gift to you.
    Senator Boxer. Never mind that.
    Senator Inhofe. It was a coffee cup that when global 
warming took place, it spilled coffee.
    Senator Boxer. I would call that a trick gift. This is a 
real gift.
    Senator Inhofe. It is very nice. Thank you.
    We are going to start with opening statements. She may 
change her mind.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Even with the controversial nature of the 
items on this morning's markup, I would like to note every bill 
on the markup agenda has bipartisan support.
    President Obama announced his new regulations on power 
plants on Monday, making a bad deal even worse. These 
regulations are the product of backroom sue and settle tactics 
with radical environmental lobbying organizations.
    Thirty-two States, including my State of Oklahoma, already 
oppose them, and 15 of the States have already legally 
challenged them, including my State of Oklahoma. The States 
will continue to challenge them.
    At least 43 States will experience electricity price spikes 
due to them according to testimony before this committee. They 
will actually increase global CO<INF>2</INF> emissions, sending 
American jobs and investment overseas to high polluting 
countries. As they leave the United States, they go to 
countries where there are no regulations and obviously would 
have the effect of increasing not decreasing CO<INF>2</INF> 
emissions.
    They were characterized by Obama's own constitutional law 
professor in a hearing we held. He said, ``Burning the 
Constitution of the United States should not be a part of the 
national energy policy.''
    According to testimony before this committee from the 
former Sierra Club General Counsel, they rest on dubious legal 
grounds. According to testimony by the National Black Chamber 
of Commerce also before this committee, they will ``increase 
Black poverty by 23 percent, Hispanic poverty by 26 percent and 
result in 7 million job losses for African-Americans and nearly 
12 million for Hispanics by 2035. They rely even less on 
natural gas and give only marginal credit for new nuclear 
capacity.'' Finally, according to EPA officials in two hearings 
before this committee, all of them will not affect global 
CO<INF>2</INF> levels.
    This is not a good deal for the American people. I thank 
Senator Capito for drafting S. 1324, the Affordable Reliable 
Energy Now Act of 2015, to address these problems. Her bill 
sends the EPA back to the drawing board and provides a host of 
new requirements that will ensure future proposals actually 
improve the environment in a balanced and healthy way.
    Her bill increases transparency, protects the role of 
States and provides certainty to the regulated community. 
Finally, it protects energy consumers from industrial 
manufacturers to the kitchen table from unnecessary costs and 
unjustified price increases.
    Additionally, the markup agenda includes measures to 
reauthorize the grant making estuary program and address 
duplicative regulatory requirements concerning pesticide use. 
We are actually siding with the EPA on this one.
    Finally, the agenda includes a measure to continue the use 
of Pittman-Robertson interest payments as additional funds for 
conservation efforts, names courthouses and a segment of the 
interstate in Texas after accomplished Americans.
    The agenda considers four GSA resolutions which will save 
Americans well over $100 million and eliminate tens of millions 
in cost from potential and current leases.
    Everything on the agenda has bipartisan support.
    We have votes starting at 10:30 a.m., so we are going to 
rush through and see how far we can get by 10:45 a.m. Who 
knows, we might be able to finish.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I doubt that, but I would say we are here 
today to consider several bills. Most of them are 
noncontroversial. Two of them, I believe I do speak for my 
side. By the way, they may be bipartisan but not in this 
committee, not in this committee.
    Two of these bills, S. 1324 and S. 1500, are extremely 
harmful to the people we represent. S. 1324 blocks the 
President's Clean Power Plan and allows States to opt out of 
complying with any future plan. The bill creates giant 
loopholes, making it nearly impossible to take any meaningful 
action to address climate change and reduce harmful carbon 
pollution which hurts our families.
    We know if we turn away from the President's Clean Power 
Plan we not only move toward the most devastating impacts of 
climate change. We are already seeing them. My State has never 
had such raging wildfires, which I see the Senators from 
Oregon, Washington and California all predicted, due to climate 
change. We have droughts which were all predicted due to 
climate change.
    Those who deny it and try to stop our progress, as this one 
bill does, are on the wrong side of history and will have to 
answer to future generations if their view prevails, which I 
hope it does not. It will on this committee, there is no doubt 
about that.
    Why would we want to do something that would mean up to 
90,000 more asthma attacks, 1,700 more heart attacks, 3,600 
more premature deaths and 300,000 more missed days at school 
and work? Why would we want to do that in the Environment 
Committee?
    We have letters in opposition to this bill from dozens and 
dozens of public health, business, environmental and religious 
groups. I ask unanimous consent for these groups to be put in 
the record against the Capito bill. These are groups you would 
want on your side, American public health, religious 
organizations, all opposed to that bill.
    Senator Inhofe. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    




    Senator Boxer. Thanks.
    The second controversial bill, S. 1500, would end the 
requirement that you need to get a Clean Water Act permit if 
you are spraying pesticides into a body of water. Just think 
about it.
    The sole purpose of a pesticide is to kill something, 
whether it is an insect or a weed. When pesticides get into 
bodies of water where our children swim and waterways that 
provide drinking water to our families, we are exposing people 
to substances known to be toxic. Pesticides have been linked to 
a wide range of damaging health impacts including irritation of 
the skin and eyes, damage to the nervous system and other harm 
to pregnant women, infants and children.
    Pesticides can also be human carcinogens. The negative 
effects on the environment, including fisheries, have been well 
documented. Over a billion pounds of pesticides are used 
annually in the United States. The U.S. Geological Survey found 
that 61 percent of agricultural streams and 90 percent of urban 
streams are contaminated with one or more pesticides.
    Pesticide pollution is a problem. What is the answer? Just 
spray away, that is what my Republican friends say, spray away, 
and do not worry about getting a clean water permit.
    The Clean Water Act permit has been in place since 2011. No 
one has complained that it has stopped the use of pesticides 
but it ensures that pesticides are used in a responsible way 
that reduces contamination of our streams, rivers and lakes.
    Why on earth do you need to repeal this public health 
safeguard? I do not know what we are here for. Honestly, I 
wonder.
    The answer is we should not do this. That is why a broad 
range of groups, including Republican basic supporters, 
commercial fishermen, public health and environmental 
organizations have written in opposition to this legislation to 
exempt pesticides from the Clean Water Act.
    I ask unanimous consent to place these letters into the 
record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    
    Senator Boxer. In closing, it shocks me that this 
committee, the Environment and Public Works Committee, on 
public works we work as a team, but on the environment, we go 
back into our corners. It is hard for me to see this committee, 
which was led by Republicans and Democrats who believed that 
protecting the environment is our charge, could lead the charge 
against a clean and healthy environment. It does not make any 
sense.
    These bills will be reported today. We know we do not have 
the votes to stop you and they are not bipartisan in this 
committee, but I know there will be strong opposition on the 
floor of the Senate. I hope they never see the light of day.
    Senator Inhofe. On that happy note, we have good news, and 
that is the vote has been moved to 2 o'clock so we will be able 
to stay here until the bitter end.
    As a reminder, a quorum of 11 would be needed to report 
legislation. A quorum of 7 is needed for amendments. Let us try 
to hang around.
    As usual, I will ask members to seek recognition on each 
amendment as they come up. We will hear the amendments, and 
there are quite a few as I understand.
    We will start with S. 1324, the ARENA Act. I will recognize 
Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I would like to begin by saying I know there are passions 
on both sides of this issue. I think the passion I have on my 
side of this issue is just as heartfelt, sincere and driven by 
the people I represent every day. I thank you for holding the 
hearing.
    This bill is bipartisan. It has 35 co-sponsors, including 
Leader McConnell and all my fellow Republicans on this 
committee.
    The ARENA Act is strongly supported by the Partnership for 
A Better Energy Future, whose members include: the National 
Association of Manufacturers, the Chamber of Commerce, the 
American Farm Bureau Association, the National Mining 
Association and the Home Boaters Association.
    The ARENA Act is not just supported by businesses. We also 
have strong support in the labor community. There are letters 
of support I would like to submit for the record from the 
United Mineworkers of America, the International Brotherhood of 
Boilermakers and the Utility Workers Union.
    Senator Inhofe. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Capito. Thank you.
    As we all know, on Monday, President Obama and his 
Environmental Protection Agency announced their final clean 
power grab. It proposes benchmarks that are more stringent and 
less attainable.
    We used my State of West Virginia as an example. Our 
emissions rate under the proposed rule was to drop 
approximately 20 percent. The final rule requires our rate to 
drop by nearly 37 percent, a drop that is almost twice as 
severe.
    In my view, this is why we need the ARENA Act now more than 
ever. I am going to explain four basic tenets of the ARENA Act, 
and we will move to consideration.
    First, for new power plants, the bill prevents EPA from 
mandating use of unproven technology. The President talks about 
CCS and uses an example of CCS that is not economical or 
technologically feasible.
    Before EPA can set a technologically based standard for new 
power plants, I think the standard must first be achieved for 
at least 1 year at six different power facilities throughout 
the country.
    Under ARENA, the best current technologies set the standard 
for new coal plants, cleaner, more efficient and less 
emissions.
    Second, for existing power plants, the bill delays 
implementation of the rule pending final judicial review. 
States should not have to begin implementing these costly and 
burdensome plans until an unappealable judicial decision has 
been reached. In June, we saw under the MATS ruling, the 
Supreme Court came back and said the EPA did not make careful 
consideration of the cost.
    Third, the bill allows States to opt out to protect 
ratepayers and electricity reliability. States should not be 
required to implement a State or Federal plan that the State's 
Governor determines would negatively impact economic growth, 
the reliability of the electricity system or electricity 
ratepayers.
    Fourth, the bill holds EPA accountable by requiring that 
the agency issue State-specific model plans demonstrating how 
each State will meet the required greenhouse gas emissions 
reductions under this rule. Before States can make major and 
costly changes to meet EPA's proposed targets, EPA should map 
out a suggested route for each State to reach those targets.
    I urge support of this legislation and look forward to the 
markup.
    Thank you, Mr. Chairman.
    [The text of S. 1324 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Thank you, Senator Capito.
    Does any Senator seek recognition for amendments to the 
bill?
    Senator Markey.
    Senator Markey. Thank you very much, Mr. Chairman.
    Without question, we are about to begin a historic debate. 
The President has laid out what is necessary in order to 
protect our planet, in order to protect the health of those who 
live on our planet, and those who live in the United States of 
America.
    It is a plan which tries to put in place the preventative 
measures that are going to be necessary because we know that 
climate change impacts our economy, our national security and 
the public health of our citizens, parents, pediatricians, 
Presidents and Popes, of the risks that we face from climate 
change. They agree that now is the time for action.
    The negative health impacts of climate change are numerous 
from heat waves.
    Senator Inhofe. Senator Markey, which amendment are you 
addressing now?
    Senator Markey. Right now, I am addressing Amendment No. 4.
    Senator Inhofe. Amendment No. 4, Markey No. 4.
    Senator Markey. The negative health impacts of climate 
change are numerous heat waves and extreme storms to expanding 
ranges of dangerous diseases and longer allergy seasons. The 
risks to our health from pumping carbon pollution into the air 
are well known.
    This bill would eliminate EPA's ability to address carbon 
pollution through the Clean Power Plan or essentially any 
action in the future. It would eliminate EPA's ability to 
protect public health from reducing carbon pollution from power 
plants and that is unacceptable.
    That is why eight leading medical and health organizations 
sent a letter yesterday opposing this bill because it would put 
lives at risk by delaying and blocking critical clean air 
protections.
    The groups who sent the letter include the American Lung 
Association and the Asthma and Allergy Foundation. All of these 
groups are concerned about the health of those who live in our 
country.
    In June at the legislative hearing we had on this bill, we 
heard testimony from Dr. Mary Rice. She testified as a doctor, 
as a Harvard medical researcher who specializes in the health 
impacts and as the mother of a child with asthma.
    From both a personal and professional perspective, she 
warned of the health risks of climate change. We should heed 
the Hippocratic oath of doctors and do no more harm to our 
climate and to the health of today's children and future 
generations.
    My amendment is very simple. It would prevent this Polluter 
Protection Plan from coming into effect until a National Carbon 
Pollution Program is in place that achieves the same health 
benefits as the Clean Power Plan.
    This Polluter Protection Plan will not apply until we have 
something that avoids, here are the numbers, 3,600 premature 
deaths per year, 1,700 heart attacks per year, 90,000 asthma 
attacks per year, 300,000 missed work and school days per year.
    To put a fine point on it, if you do not like the Clean 
Power Plan, then what is your plan to cut carbon pollution and 
address the negative health impacts of climate change? What is 
your plan to avoid the asthma, the deaths and the missed work 
days? What is your plan? Put your plan out here so that we can 
hear what you are going to do.
    The medical community has identified the relationship 
between the pollution that goes up into the air and the 
negative consequences especially for children in our society. 
What is your plan? When is it going to be out here? Who is 
going to make that plan on your side? When do you begin to be 
the leaders in protecting the health of the children in our 
country?
    That is what our amendment calls for in this first vote. 
This plan stays in place until you have a plan that 
accomplishes the very same goals to protect the public health 
in our country. You cannot deny the scientific correlation 
between this pollution and the impacts on the health in our 
country. What is your plan?
    Mr. Chairman, I ask for an aye vote on this first 
amendment.
    [The text of Markey Amendment No. 4 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. I would only observe, Senator Markey, that 
Dr. Janet McCabe has testified several times before this 
committee about the nature of the double counting, and there 
have not been reductions. However, they are due to other 
pollutants as opposed to this.
    Senator Capito, did you want to respond?
    Senator Capito. I think certainly the health of our 
children is upmost in all of our minds. To think we would not 
want to have policies that move forward to keep our children 
healthy is a smokescreen of some sort.
    I would say when I look at what the employment numbers will 
be in our State, the thousands of jobs we have already lost 
that are plunging people into deep poverty, poverty is a 
contributor to ill health all across the country for our 
children.
    I think there are costs and benefits to everything. I think 
in this case it is more cost than benefit in terms of keeping 
people working, keeping families together, keeping people 
insured that have insurance through their employer, all those 
things that help keep children healthier.
    I think there are lots of things we can do to eliminate 
asthma and other lung diseases around the country. We have 
looked at eliminating other particulates. I think that has done 
some good work.
    I would oppose the gentleman's amendment. I think it is 
more cost and less effect.
    Senator Inhofe. Others who want to be heard?
    Senator Boxer.
    Senator Boxer. Thank you.
    If my friend is sincere about wanting to reduce health 
problems, she should support Senator Markey. He says your bill 
is fine, but not now because it does not address the facts.
    Maybe my friend, and I know she cares about kids as much as 
I do, needs to follow the leadership of people who spend their 
life every day protecting kids. They wrote to us. They do not 
like your bill, and they urge us to oppose it.
    They are the Allergy and Asthma Network, the American Lung 
Association, the American Public Health Association, the 
American Thoracic Society which deals with heart issues, the 
Asthma and Allergy Foundation of America, Health Care Without 
Harm, the National Association of County and City Health 
Officials, the National Environmental Health Association, the 
Trust for America's Health. I could go on for pages and pages.
    The fact is the experts are telling us that your bill poses 
terrible health impacts for our children and our families. You 
can say poverty is worse. You know what, poverty is terrible. 
That is why a lot of us who worked on moving to clean energy 
have worked to make sure that coal miners get the help they 
need in transitioning.
    If you look at my State, the biggest job growth is in clean 
energy. Guess what, those are great paying jobs that cannot be 
outsourced. They are safe for the workers. They do not have to 
breathe in coal dust and all the rest, so get with it.
    I think Senator Markey had a brilliant speech on the floor, 
and Senators Whitehouse and Schatz. One of the things they said 
is if we had this attitude about moving forward, moving to new 
and innovative technologies, we would not have the cell phone, 
we would not have the computer, and we would not even have the 
automobile. We would still be driving around with a horse and 
buggy.
    The time for clean energy is now. The health impacts of 
some of the old energy are serious. I think your bill drags us 
backward. I hope that we will support Senator Markey's 
amendment.
    Senator Inhofe. Others who want to be heard?
    Senator Whitehouse. Mr. President.
    Senator Inhofe. Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Senator Inhofe. President of what?
    Senator Whitehouse. You are the Presiding Officer or the 
Chairman of the committee right now, Mr. Chairman.
    I would ask that we not consider the health concerns that 
folks on my side of the aisle have about this measure which 
would delay the implementation of the plan and therefore create 
worse health conditions as a smokescreen. I do not think that 
is fair, and I do not think it is accurate.
    Rhode Island has been a downwind State from the coal 
polluters for a long, long time. Just last week we had another 
bad air day. It was a bad air day in which infants, seniors and 
people with breathing conditions were urged to stay indoors, 
and people were urged to avoid vigorous outdoor activity.
    That is what happened in my State. There is nothing we can 
do about it. That happened in my State because the pollution 
from these coal power plants goes up into the air, and it bakes 
in the heat, so the carbon does make a difference because it 
does warm the planet. That is undisputable, I think. In that, 
it becomes ozone and then ozone creates asthma.
    Our health officials are very clear in Rhode Island that 
this ozone problem is actually putting kids in the hospital. 
That is no smokescreen. That is a very legitimate concern that 
I have about this.
    My experience, to address another point, is that this is 
going to be economically harmful. In my experience, because 
Rhode Island is a participant in the Regional Greenhouse Gas 
Initiative, is that it actually has been good for our economy.
    Objective reports have come out and said it has 
strengthened the New England economy to participate in the 
Regional Greenhouse Gas Initiative. We have the numbers for job 
growth, economic growth and utility costs are down.
    From my experience, the threat this is going to be an 
economic harm that is going to cause poverty runs exactly 
contrary to the experience we have had in the Northeast of 
implementing a cap and trade program, of bringing those 
revenues back into the State and of allowing them to lower 
utility costs by investing in efficiency which is hard to 
otherwise invest in.
    I will make one last point. On the floor yesterday, I used 
the chart of the electric power mix of the State of Kentucky. 
Do you know what it looks like? It is virtually a 100 percent 
wall of coal.
    If you look at the solar and the wind proportion of it, it 
is so small across the very tippy top of the line, a tiny 
little green line, you actually have to use a magnifying glass 
to see it. They say the sun shines bright on my old Kentucky 
home; where is the solar?
    Iowa, which has two Republican Senators, gets 30 percent of 
its power from wind. Kentucky has wind. The issue here is not 
that it is difficult to do; the issue here is that some States 
have not even tried.
    I cannot tell you how hurtful it is when I have Rhode 
Island kids going to the emergency room because of asthma, when 
I have Rhode Island coastlines seeing 10 inches of sea level 
rise, when I have Rhode Island's fishing industry being 
disrupted by the warming of Narragansett Bay 3 to 4 degrees, 
completely disrupting the winter flounder fishing which was 
important to our fishermen, from States that have not even 
tried, when all the evidence about what happens when you try is 
that it is good for your economy, I find these arguments hard 
to take.
    We feel the health effects. We are the downwind States. We 
are the coastal States. It is really happening to us. I urge a 
no vote. Please, nobody even tried.
    I respect the proponent of this legislation. I respect her 
view that we are sincere in our views, but there was zero 
effort to try to accommodate any of our views. This is a pure 
partisan effort in this committee to simply roll us.
    I know we are going to get rolled, but do not pretend that 
any effort was made to substantively try to address the real 
health concerns we see in Rhode Island, the real ocean concerns 
that we see in Rhode Island and the real climate concerns that 
we see in Rhode Island.
    Senator Inhofe. Thank you, Senator Whitehouse.
    The Chair would observe that the total percentage of the 
mix when you combine air, wind and solar, it is only 5 percent 
after all the subsidies that are out there and the public 
input.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, let me take this opportunity 
on the Markey amendment for my support, my opposition to the 
underlying bill and to make my comments on the Markey 
amendment.
    I agree completely with Senator Markey in regard to the 
Clean Power Plan as being critically important to the health of 
our constituents. The dollar values of the health savings alone 
should cause all of us to understand how important clean air is 
to the health of our children and our families.
    The number of additional health care visits and the number 
of work days lost by parents have all been documented, and 
there is no question about the health risks involved if we do 
not move forward with the power plant rules.
    I also want to add to Senator Whitehouse's statement. 
Maryland has gone through this. We have set up a plan to reduce 
our greenhouse gas emissions by 25 percent by 2020 compared to 
our 2006 levels. As Senator Whitehouse said, you can go by 
example of States that have moved forward on these plans. We 
are about 40 percent to that level, by the way.
    At the same time that we have moved forward on reducing 
greenhouse gas emissions, we have shown a very positive effect 
on our economy and documented savings to the consumers. Our 
utility costs have actually been savings, not additional costs.
    The examples in the Northeast of the States that have taken 
action have seen positive to our economies, produced cleaner 
air and have also added to an important national security 
issue. We have heard from our military people the effect 
climate change is having on our national security. This is a 
win-win-win situation if you just allow us to go forward.
    I would hope Congress would want to be a positive partner 
with the Administration in helping to achieve the goals of 
reducing our greenhouse gas emissions and much more reliance on 
alternative renewable energy sources. Instead, this bill moves 
us in the wrong direction.
    For that reason, I strongly support Senator Markey's 
efforts and will oppose the bill.
    I will yield to my colleague.
    Senator Markey. Thank you.
    The Senator from West Virginia said that my amendment is a 
smokescreen. It is a smokescreen. It is intended to screen off 
the lungs of the children in America from the smoke coming out 
of these polluting utilities.
    On the other hand, the bill that we have here today is a 
screen to protect polluters' profits so that they can continue 
to send their smoke up into the sky. This is really what the 
debate is all about, who is really trying to protect with a 
screen of lungs of the children.
    Once again, I ask for an aye vote. I thank the Senator for 
yielding.
    Senator Inhofe. Senator Gillibrand, did you want to be 
heard before we go to a vote on the Markey amendment?
    Senator Gillibrand. No, I would like to be heard after the 
vote.
    Senator Inhofe. All right. Is there a motion on the 
amendment?
    Senator Markey. Motion.
    Senator Boxer. Second.
    Senator Inhofe. There is a motion and a second.
    Senator Markey. I request a roll call.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment is not agreed to.
    Are there other amendments that want to be heard?
    Senator Gillibrand.
    Senator Gillibrand. I would like to call up my amendment, 
Gillibrand-Markey No. 1 to S. 1324.
    Obviously climate change is real, it is here, and humans 
have a very significant role to play in it. Despite the 
overwhelming science showing that climate change poses a real 
threat to our communities, the majority in the Senate continues 
to oppose doing anything meaningful to stop climate change or 
to reduce our carbon emissions.
    The truth is that New York does not have that luxury. Two 
and a half years ago, Superstorm Sandy devastated large parts 
of the East Coast including my home State of New York. 
Superstorm Sandy resulted in the deaths of 117 people in the 
United States and caused more than $60 billion in damages.
    That storm came just a year after two other devastating 
storms, Hurricane Irene and Tropical Storm Lee, which also 
ravaged the Northeast. In just over 2 years, we had three major 
tropical storms in New York, three of these storms in 2 years. 
Think about that. The storm of the century is becoming the 
storm of the year.
    New York has over 1,800 miles of shoreline, and the coastal 
water has risen at least one foot since 1900. Our shoreline is 
home to more than half of all New Yorkers. If we do not act 
soon, we could see additional sea level rise of 4 feet by the 
year 2100.
    We have the responsibility as a committee to act. We have 
the responsibility to act against the increased frequency and 
heightened intensity of flood damage and storm surge damage not 
only to our communities and our infrastructure but to the 
critical ecosystems that buffer against floods and protect our 
drinking water.
    We have to act against increased erosion of beaches and 
shoreline, against inundation of low lying areas by rising sea 
levels, and we need to protect ourselves from saltwater 
intrusion into freshwater aquifers that serve our communities 
as our drinking water.
    My amendment looks to protect the 39 percent of Americans 
who live in coastal shoreline counties by ensuring this 
legislation will not be implemented if the EPA Administrator, 
the Commerce Secretary and the Interior Secretary determine it 
will contribute to an increase in sea level rise and coastal 
erosion.
    We have a fundamental responsibility in this committee to 
protect our communities from the harm caused by human made 
climate change. This amendment would ensure that nothing we do 
going forward will accelerate the rise of sea level on 
America's coasts.
    I urge my colleagues to support this amendment. I request a 
roll call.
    [The text of Gillibrand-Markey Amendment No. 1 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Gillibrand.
    I would just observe that talking about climate change, we 
have had a lot of committees to do that and that is not what we 
are doing today. We have under consideration several pieces of 
legislation and GSAs. Now we are on the Capito amendment.
    Do others want to be heard on the Gillibrand amendment?
    Senator Carper.
    Senator Carper. Thanks so much.
    Some of you come to our States during the course of the 
year, and some of you come especially during the summer. We are 
blessed with I think more five star beaches than any State in 
America. One of them is called Rehoboth, which literally 
translates in the Bible to mean room for all. We think that 
would include everyone in this room and beyond.
    When you drive north from Rehoboth maybe 20 miles or so, 
you come to a place called Prime Hook Beach. Prime Hook Beach 
is right next door to the Prime Hook Natural Wildlife Refuge, a 
beautiful, large piece of land with all kinds of national 
treasures, fish and wildlife.
    It used to be you could get to Prime Hook Beach by driving 
north from Rehoboth up the coast. You could also come from the 
inland part of our State. There is a road called Pine Hook 
Beach Road. You can get off State Road 1 in the central part of 
the State and head east toward the Delaware Bay and drive right 
along Prime Hook National Wildlife Refuge, and you get to the 
water, end up right at the water's edge. That is the Delaware 
Bay.
    It used to be you did not get right to the water. You would 
actually get to a parking lot. People would park their cars, 
trucks or boats and then fish, go clamming, whatever they 
wanted to do for recreation. At the end of the day, they would 
go back to the parking lot, get their vehicles and boats, head 
out and go home.
    Today, when you get to where the parking lot used to be, 
there is not a parking lot. It is just water. The reason it is 
just water is, the parking lot is down there but it is under 
the water, but it is water. It is the Delaware Bay.
    Someone showed me a photograph a couple years ago standing 
on Prime Hook at the parking lot, looking out in the Delaware 
Bay. As you looked east toward New Jersey at about 1 or 2 
o'clock was a concrete bunker sticking up out of the water. 
This was in 1947, the year I was born.
    Today, if you look out at the water, the bunker is not 
there anymore. It used to be about 500 feet west of the dune 
line inland. Today, it is under water. You cannot see it. You 
just cannot see it at all.
    Senator Boxer and I like to trade music lyrics. One I have 
used to describe this sensation is looking out where the bunker 
used to be, 500 feet inland to the west, and looking out there 
knowing it is somewhere under water reminds me of the old 
Steven Sills song, ``Something is happening here, just what it 
is ain't exactly clear.''
    For us in Delaware, we are the lowest lying State in 
America, think about that. We are the lowest lying State in 
America. Our economy is strong in a couple different ways. One 
of the three or four pillars our economy stands on is tourism. 
A big reason why people come to Delaware is because we have 
these five star beaches.
    The way things are going, if we are not careful, we will 
have those five star beaches but they will be under water too, 
just like our concrete bunker and just like that parking lot.
    I would say for us in the State of Delaware, this is real. 
It is a matter of great concern for us. I hope as we consider 
this issue and this vote on the Gillibrand amendment, we will 
keep that in mind.
    Thank you.
    Senator Inhofe. Is there a motion on the Gillibrand 
amendment?
    Senator Markey. Mr. Chairman.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you.
    I rise in support of the Gillibrand amendment just to say 
this that the rise in sea level is undeniable. It is 
measurable. It is not something that is complicated. We know it 
is going on.
    We each know how grateful we feel that Superstorm Sandy did 
not hit our State because if it had, it would have caused 
catastrophic damage in our States as it did to New Jersey.
    The sum and case on this issue is the suit that was brought 
by the State of Massachusetts versus the EPA. It is called 
Massachusetts v. EPA. That is the Supreme Court decision in 
2007 that set us on this course.
    At question in that Supreme Court decision was the question 
of whether or not there was an increasing and dangerous 
increase in the erosion of the shoreline of Massachusetts. The 
Supreme Court ruled that there was and that the EPA had a 
responsibility to do something to reduce the likelihood that 
there would be an increase in the danger. That is why we are 
here.
    We are here because we know it is happening. We know it is 
happening in Massachusetts, but we know it is happening in 
every coastal State in our country.
    The Gillibrand amendment just says again, to the 
Republicans, what is your plan to keep the sea from rising? 
What is your plan to ensure that the sea does not continue to 
warm dangerously? What is your plan? We do not see that plan 
unless you deny the seas are rising, unless you deny the ocean 
is warming because that is scientifically inaccurate.
    We need to hear your science or your plan to deal with the 
science we are presenting. I urge an aye vote.
    Senator Wicker. Mr. Chairman.
    Senator Inhofe. Senator Wicker.
    Senator Wicker. I will be happy to defer to Senator 
Merkley.
    Senator Inhofe. We are going back and forth.
    Senator Wicker. Clearly we are going to have a long debate 
about this in the committee and on the floor.
    Senator Inhofe. Let me interrupt you. We have had this 
debate before. We had Dr. Judith Curry from Georgia who 
testified.
    Senator Wicker. I was going to speak about Dr. Curry.
    Let me say this. Senator Vitter was here and has left, but 
I recall a statement he made some 2 years ago at a hearing of 
this committee when Senator Boxer was Chairman. The title of 
the hearing was Climate Change, It Is Happening Now.
    As Ranking Member, Senator Vitter pointed out indeed 
climate change is happening now and has always been happening. 
I do not think any member of this committee on either side of 
the dais would argue that the climate is not changing.
    The point that Senator Vitter made and that I would make is 
that the climate has always changed. There is a reason why the 
island of Greenland is named Greenland because at one point, it 
was green, and people had farms there. Humankind settled there 
and grew a crop. The climate changed, and we cannot farm in 
Greenland anymore.
    I would simply say there is a great body of science that 
will tell us, if we will listen, that climate has always been 
changing and will always change because there are influences 
beyond the control of humans. We might as well accept that. 
There are some things Congress cannot do.
    The fact is sea level has been rising for the past several 
thousand years. That is a fact, and it can hardly be disputed.
    As the Chairman mentioned, Dr. Judith Curry came before the 
EPW Committee 2 years ago for a hearing on the President's 
Climate Action Plan. She discussed sea level rise, testifying 
that data does not support the IPCC's conclusion that man has 
substantially contributed to the global mean sea level rise 
since 1970.
    I do not think Dr. Curry would dispute the fact that there 
are parts of the parking lot in Senator Carper's State that 
cannot be seen anymore, but she came before this committee as a 
scientist and a scholarly witness saying there are other 
reasons that cannot be controlled by Congress or by humankind.
    Dr. Curry also pointed out that sea level rise was greater 
between 1904 and 1953 than between 1954 and 2003. As we have 
gotten more industrialized, as we have emitted more carbon 
dioxide into the atmosphere, actually sea level rise has 
slowed, since 1954 according to Dr. Curry.
    Let me say a couple more things. We have been having storms 
and hurricanes in the Atlantic Ocean and the Gulf of Mexico 
since time immemorial. I think there are a lot of scientists 
who believe that mankind is contributing to climate change who 
would seriously come before this committee and say it is wrong 
to say we can blame Superstorm Sandy on that. The jury is far 
from out on that, even among people who believe completely and 
wholeheartedly that carbon dioxide is causing this.
    I have one other final point to my friend from 
Massachusetts. He and I have been at this business together for 
a long time. This legislation has nothing to do with smoke. If 
we are honest, the President's regulation, the EPA's regulation 
we are talking about has nothing to do with soot or particulate 
emissions or smoke.
    If Senators want to sit down with me and devise a plan to 
do an even better job than we have already done of cutting down 
on soot, smog and smoke, then I am happy to join this. This 
regulation is about CO<INF>2</INF>, not about the smudgy kind 
of carbon that messes up your clothes and you see coming out of 
automobiles.
    This is about a colorless, tasteless, necessary part of the 
atmosphere called carbon dioxide. We can have a debate, my 
friends across the aisle disagree with me vehemently about 
this, about what CO<INF>2</INF>, carbon dioxide, is doing to 
the atmosphere, but please do not say this is about smoke, soot 
or smog or something that causes the air to look hazy as they 
have in Beijing and other places.
    We have done such a good job in the United States of 
cutting back on that and pretty much conquering that.
    This is about carbon dioxide, a tasteless, odorless gas 
that is essential in photosynthesis. I would just like to point 
that out.
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you.
    You have just heard a lecture, and it is just not true. I 
am going to put into the record my rebuttal to that. I have on 
these charts the facts about what has happened to the climate, 
not that we have seen a slowing of carbon and the rest. Let us 
just see the facts.
    The scientists warned there would be more heavy 
precipitation and flooding events. Let us look at Texas. In 
2015, areas of Texas got 11 inches of rain in 24 hours. The 
Blanco River rose 33 feet in 3 hours. It broke the 1929 record 
by over 7 feet.
    In Boston, the National Weather Service data finds an all 
time record for snow within a 14- to 20- and 30-day period.
    In the Arctic, decreasing polar sea ice, Arctic sea ice 
area has declined 40 percent since 1978 and thinned more than 
50 percent. Average summer temperatures are now higher than any 
century in more than 44,000 years. It has lost 40 cubic miles 
of ice every year since 1994.
    Volume loss from the Antarctic ice shelves is accelerating. 
The ice shelf, twice the size of Hawaii, is at imminent risk of 
collapse posing major sea level threat.
    Rising sea levels, which my colleagues have talked about, 
since the 1990s, sea levels have risen even more rapidly than 
thought and threaten our coastal communities. Sea level rise 
over the past century is unmatched by any period in the last 
6,000 years.
    Who said this? It is not one scientist. It is groups of 
scientists. Hot extremes are more frequent, NOAA, NASA; hottest 
year on record, 2014, 2015, first half of year, hottest on 
record. In 2014, California records hottest year on record by 
over 4 degrees; that's NOAA.
    In 2014, Australia, towns 320 miles northwest of Sydney hit 
118 degrees. In June, India temperatures reached 118 degrees 
with the death toll reaching 1,800 people.
    Areas affected by drought, California drought the worst in 
1,200 years. Increase in bigger wildfires, the U.S. has seven 
times more wildfires over the size of 10,000 acres as compared 
to the 1970s. Arizona and New Mexico suffer largest wildfires 
in recorded history.
    Hurricanes, Hurricane Sandy strength, as indicated by 
barometric pressure just before landfall, set a record. Typhoon 
Haiyan was one of the strongest tropical cyclones. In Vanuatu, 
Tropical Cyclone Pam was the strongest tropical cyclone.
    What are we talking about that things are getting worse? It 
is just belied by the very facts around us. That is why the 
polls are showing increasingly that the deniers and people who 
say, carbon is no problem, it is not a pollutant, the co-
benefits of reducing carbon is what has been measured, measured 
in fewer asthma attacks, fewer heart attacks and fewer missed 
days of school.
    The reason we are taking all this time, Mr. Chairman, is 
because you have 1 day after the announcement of this plan to 
come forward with essentially a repeal. The arguments being 
made just do not match the facts.
    I yield to Senator Markey.
    Senator Markey. I thank the Senator from California very 
much.
    Senator Inhofe. I think you should operate through the 
Chair. If you seek recognition, I would be glad to recognize 
you.
    Let me just observe we have had hearings on all of this. I 
can come up with my book of science on this. It is divided. We 
all know that. We know that. You speak of it as a fact. You 
speak of it as now the public is aware. Let me tell you what 
Gallup says.
    Gallup said 3 years ago that climate change or global 
warming, let us get back to the origins of this, was either the 
No. 1 or No. 2 concern. Today, it is number 30 out of 31. It is 
nearly last in terms of the environmental concerns, so it is 
just not factual.
    It does not really matter for the purpose of this committee 
hearing, however. We have a bill before us, and we have an 
amendment. We need to act on the amendment. Everyone wants to 
campaign, and everyone wants to tell their story.
    If it is really just your wish to stall this so we do not 
have the hearing, then go ahead and say it.
    You are recognized.
    Senator Markey. I thank you, Mr. Chairman, very much.
    First of all, this is the most important debate we are 
going to have in this committee in 2015 and 2016, so I am not 
trying to drag out anything. We are just trying to give the 
proper respect to this issue which it deserves.
    We are not going to do anything more important in 2 years; 
this is it. This is the most important issue of our time. We 
are having a big debate here, but I think it is only a 
reflection of how important it is.
    Let me just say, one, on the issue of what we are doing 
with the Clean Power Plan on the issue of disease, the Clean 
Power Plan reduces SO<INF>2</INF>, sulfur, by 90 percent 
between now and 2030, a 90 percent reduction.
    What does that relate to? That is soot which is tiny 
particulates that can go into people's lungs. That is heart 
disease.
    It also reduces nitrogen oxide by 72 percent. What is that? 
That is smog and that is asthma. That is 72 percent. That is 
what this plan does in addition to reducing CO<INF>2</INF> by 
32 percent by the year 2030.
    On the issue of Greenland, yes, Greenland is 1,000 miles 
long, pretty much from here down to Miami and about 300 or 400 
miles wide. At its densest, it has an ice block which is 10 
Empire State Buildings high.
    At this point of the year, in Greenland, the warm weather 
throughout the spring and into the summer creates huge lakes of 
the melting ice. As the summer goes on, there is an eddying 
effect, creating moulins that go all the way down to the bottom 
of those ice blocks as they are being measured now at 3 and 4 
on the Richter scale and ice quakes. As the summer goes on, 
that water flows down to the bottom of the ice and continues to 
liquefy that ice as it moves closer to the land.
    In the North Atlantic, for Senator Gillibrand, Senator 
Whitehouse, Senator Cardin or Senator Carper, or I, it is like 
a glass of water that is already filled. It is filled to the 
top. If you put an ice cube into that, the water flows over and 
has no place to go.
    It is not like the ice in the Arctic where there is no land 
and it melts. This is different. That is what Iceland is all 
about; that is what Alaska is all about. It is what the 
Antarctic is all about. It is putting the ice cube into the 
water. What we are seeing is this increase in sea level.
    Senator Inhofe. The Chair is going to interrupt you. I am 
very sorry, and I do not like to do this, but we have had 
hearings on all of this. I could answer everything that you 
have just asserted, and there is another side to it.
    However, we have legislation before this committee. We have 
several bills, GSA, things that really have a timing where we 
have to get to it. We are not getting anywhere.
    If anyone would like to talk specifically or make one short 
statement about the Gillibrand amendment, we will recognize 
that person.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    One of the things we can recognize here is that many 
members on this side of the dais are sea States. We have ocean 
fronts. I believe that is everyone except for perhaps Bernie 
Sanders. On the opposite side of the dais, we have primarily 
non-sea States.
    What we are hearing in part is a very clear difference 
between the experience in our home States. Certainly, Oregon is 
an ocean State.
    This bill says when it is certified that the proposed 
legislation will not have further impact in damaging our 
States, it can go into effect. I very much appreciate this 
because this is something we should all be able to agree on. If 
the ideas being presented in this particular bill will not 
further hurt our States, then the path is clear, but if it is 
going to further hurt our States, then we are exercising our 
very profound concern for the direct impact.
    It has been noted how higher sea level is already occurring 
in ways that are causing beach erosion, it means storm surges 
are that much higher and certainly the erosion of the coastal 
area is a very significant concern in my home State of Oregon 
as it is to Washington State to the north and to California to 
the south.
    There is also another issue here, which is saltwater 
intrusion into the freshwater supplies for our communities. We 
can stand back and say, how expensive is it to counter all of 
this? What kind of economic damage is going to be done?
    It costs an incredible amount to build seawalls. For every 
inch of additional seawall, that is a very expensive 
enterprise. Quite frankly, a storm can take those out. Even if 
you have a seawall, that does not stop saltwater intrusion into 
the groundwater.
    Now, where is your water going to come from, where are you 
going to pipe it from? What about your main street? Senator 
Whitehouse could tell us about standing on a sidewalk down in 
Florida and at regular high tide when that sidewalk in the past 
would have been dry but now it is under water. What does that 
mean for reconstructing entire towns to keep it above water as 
it continues to grow?
    There are vast economic consequences associated with this 
issue. I think this is a reasonable proposal that we do not 
implement a plan that will cause further damage.
    Senator Inhofe. The Chair is going to cut off the debate at 
this time.
    Senator Gillibrand, what do you want to do with your 
amendment?
    Senator Gillibrand. I would like to call a vote, but I just 
want to close with one point.
    We have talked a lot about economic damage and what happens 
on a sunny day. Let me describe for 1 minute what happens 
during the storms.
    When Superstorm Sandy hit New York, a 10-foot wall of water 
came into communities. A mother holding two children lost her 
handle on her kids and they drowned. This is not an issue about 
money; this is an issue about lives lost. We have to care about 
the whole country.
    What you are hearing in this debate is your States are not 
affected; our States are deeply affected. Please consider the 
whole country when you write legislation. I know we tend to 
vote our interests, I know we tend to vote our States, but this 
is not just about money.
    This is about lives, children taken out of the hands of 
their mother because the storm surge was 10 feet high and 
seniors who could not get out of their homes in time who 
drowned in their beds. This is serious.
    I want you to consider what happens in other parts of the 
country. It is meaningful. This is not an esoteric debate; it 
is not a debate about numbers. It is a debate about lives. If 
you believe our decisions have consequences, please consider 
all the consequences.
    Thank you.
    Senator Inhofe. Senator Capito, did you want to respond? 
This is your bill.
    Senator Capito. Yes, I want to respond to the amendment. It 
is my understanding that in the Clean Power Plan, we really do 
not have a measuring device from the White House that tells us 
how much the coast is not going to rise or how much the 
temperature is not going to rise.
    Actually, in my bill in Section 4(b), I am asking for 
reporting, specific reporting, so maybe we can put some of 
these arguments to rest on the factualness. It provides that 
the EPA Administrator must conduct modeling regarding the 
impacts of the proposed rule on each of the climate indicators 
used by the Administrator in developing the proposed rule. We 
are asking for the facts from the Administrator on all of the 
different metrics we are talking about here.
    I would respond to the Senator from Massachusetts. He said 
Congress should have this debate. Right, Congress should have 
this debate. This has been a regulation that has been developed 
by the Administration.
    They say everyone commented, 4 million people commented, 
yet they do not come to one of the most deeply economically 
affected States, so yes, we should have this debate. This 
should be debated on the floor of both the House and the 
Senate, but that is not the way it is set up right now.
    I think this is an opportunity to have debate in the 
committee, but in the end, the Administration's regulatory 
prerogative, which the Supreme Court said in June on the MATS 
rule, they had overreached their authority and had not 
considered the costs in the MATS rule. That is a fact.
    All I am asking for here, I know it is a big ask, is to say 
let us wait until it works its way through the legalities, let 
us look at the impacts, have them model the impacts to the 
environment and talk about the cost benefits. Let us maybe find 
a better way to go to reach the health challenges, reach the 
economic challenges and reach the environmental challenges.
    I was looking at a chart. In West Virginia, from 2000 to 
2011, CO<INF>2</INF> emissions are down 16 percent in my State. 
In the State of Maryland, they are down 17.4 percent. In the 
State of California, they are down 8.2 percent. In the State of 
Massachusetts, they are down 18.8 percent.
    We are getting there without this large overreach that is 
going to cause a lot of harm. It is not about money. It is 
about families, too, where I live. I understand I do not live 
on the coast, and you live on the coast. I think that is a 
great point that we need to be made. There is equal passion on 
both sides.
    I would oppose the gentlelady's amendment.
    Senator Boxer. Mr. Chairman, may I be heard for less than a 
minute?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you.
    Senator Inhofe. At the conclusion of the 1 minute for 
Senator Boxer, the Chair is going to cut off debate and ask 
Senator Gillibrand if she wants to move her amendment.
    Senator Whitehouse. May I make a parliamentary inquiry?
    Senator Inhofe. Yes, you may.
    Senator Whitehouse. I have been in the Senate for 9 years. 
I have sat through quite lengthy committee speeches by members 
on the other side. I have never been in a committee in which 
debate has been cut off by the Chairman. I do not know what the 
rule is under which that takes place. This is the first for me 
in 9 years.
    Senator Inhofe. I think the Chairman has the authority to 
do that. A very good friend of mine said at one time, elections 
have consequences. At that time, the Chairman was on the other 
side of most of the issues we are discussing, and we did 
shorten our amendments.
    We have had countless hearings on the subject we are 
talking about right now. I do not want to be rude, I think you 
know that, but there has to be conclusion.
    If you do not want to vote on any of these bills on the 
agenda, you can keep talking if we do not cut off debate, but 
the Chairman has that authority. I am using it. If you have 
never seen it before, you have seen it now.
    Senator Whitehouse. OK.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you.
    The Chairman has the right but the committee has the right 
now to be here.
    Senator Inhofe. I fully agree.
    Senator Boxer. Let me say, if anyone feels that it is not 
being done fairly, I am just making the point, it is freedom of 
each colleague to do what they wish. The Chairman has the 
right, and the colleagues have the right to respond.
    I just need to say to my friend from West Virginia, the 
Clean Air Act requires this Administration to act. All you have 
to do is read it and read Massachusetts v. EPA. It was very 
clear that once an endangerment finding is made, that 
endangerment finding was actually made by the Bush 
administration which was able to get a whistleblower to send 
over the endangerment finding.
    Once that endangerment finding is made, people are going to 
die from the heat, people are going to die from the storms, and 
the emotion you heard from my colleague from New York, you know 
that is from the heart. I know you know it is from the heart.
    This is real to a lot of people. This is not something that 
is debated about the future. She saw it in her State. I am 
living it in my State with 23 wildfires and a dead firefighter 
visiting from another State, bless his heart, who died. This is 
real to us.
    That is why we are acting this way with strong views and 
feelings, as is my friend.
    I am going to conclude. Under the Clean Air Act, this 
Administration must act. If they do not act, they will be 
hauled to court. The endangerment finding is out there. Power 
plants are causing a huge amount of the problem. This is a way 
forward. I hope my friend understands that.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Gillibrand.
    Senator Gillibrand. I move the amendment and request a roll 
call vote.
    Senator Inhofe. You move it. Is there a second?
    Senator Boxer. Second.
    Senator Inhofe. OK. A roll call has been requested. The 
Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    Senator Whitehouse. Mr. Chairman, may I be recorded as aye 
in person?
    Senator Inhofe. Yes, you are so recorded.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment is not agreed to.
    Are there other amendments that want to be heard?
    Senator Merkley.
    Senator Merkley. This will be Merkley Amendment No. 1.
    We have had some discussion about whether or not human 
activity is contributing to global warming. If it is human 
activity, it is within our reach to modify our activities. If 
it is not, as has been asserted here today, then we are in a 
different world.
    I present here today, and that it be filed in the record by 
unanimous consent, a letter from 18 scientific organizations.
    Senator Inhofe. Without objection.
    [The referenced letter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Merkley. Thank you very much, Mr. Chairman.
    The letter reads like this: ``Observations throughout the 
world make it clear that climate change is occurring, and 
rigorous scientific research demonstrates that greenhouse gases 
emitted by human activities are the primary driver. These 
conclusions are based on multiple, independent lines of 
evidence and contrary assertions are inconsistent with an 
objective assessment of the vast body of peer-reviewed science.
    ``Moreover, there is strong evidence that ongoing climate 
change will have broad impacts on society, including the global 
economy and the environment. For the United States, climate 
change impacts include sea level rise for coastal States, 
greater threats of extreme weather and increased risk of 
regional water scarcity, urban heat waves, western wildfires 
and the disturbance of biological systems throughout the 
country.
    ``The severity of climate change impacts is expected to 
increase substantially in the coming decades. If we are to 
avoid the most severe impacts of climate change, emissions of 
greenhouse gases must be dramatically reduced.''
    This is from 18 scientific associations: the American 
Association for the Advancement of Science; the American 
Chemical Society, not a group you would necessarily expect to 
be on this list; the American Geophysical Union; the American 
Institute of Biological Sciences; the American Meteorological 
Society; the American Society of Agronomy; the American Society 
of Plant Biologists; the American Statistical Association; the 
Association of Ecosystem Research Centers; the Botanical 
Society of America; the Crop Science Center; the Society of 
America; the Ecological Society; the Natural Science 
Collections Alliance; the Organization of Biological Field 
Stations; the Society for Industrial and Applied Mathematics; 
the Society of Systematic Biologists; the Soil Science Study of 
America; and the University Corporation for Atmospheric 
Research.
    In addition, there are many other groups that have weighed 
in on this fundamental proposition. Those groups include the 
American Medical Association, the American Physical Society, 
the Geological Society of America, the U.S. National Academy of 
Sciences, the U.S. Global Change Research Program, the 
Intergovernmental Panel on Climate Change, and we could go on 
with another 200 across the world.
    The point is that basically every major scientific 
organization in the United States and those throughout the 
world are asserting a clear set of observations that human 
activity has a direct impact, and that direct impact is the 
warming of the planet. The warming of the planet is going to 
cause a lot of problems for us.
    My amendment simply states, as a finding of this body, that 
Congress should take under due consideration the advice from 
leading scientific institutions in the United States that 
global warming is real and due to human activity.
    I certainly would ask for your support for this.
    [The text of Merkley Amendment No. 1 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. The Chair would observe that we have had 
hearings on this. The scientific community is divided. We 
talked about Richard Lindzen from MIT, Judith Curry from the 
Georgia Institute of Technology, Roger Pielke from the 
University of Colorado, Willie Soon from Harvard Smithsonian 
Center for Astrophysics, to name a few.
    Again, this is Merkley Amendment No. 1. Are there others 
who want to be heard?
    What do you want to do with your amendment, Senator 
Merkley?
    Senator Merkley. I would like to enable my colleagues to 
share their thoughts on it.
    Senator Inhofe. I have asked for those who want to be 
heard.
    Senator Markey.
    Senator Markey. I thank you, Mr. Chairman, very much.
    I thank the gentleman from Oregon for making this very 
important amendment.
    I would just add that there is a good reason why we are 
here. There is a good reason why we are talking about 
regulations. It is this.
    We really tried to work on this issue from a legislative 
perspective. Back in 2009, we began a legislative process to 
deal with the danger of climate change. We passed legislation 
in the House of Representatives in June 2009.
    We said, at the time, to those who deny climate change or 
do not want anything to be done about it, there was going to be 
a choice. The choice was going to be legislation or regulation. 
You had to pick which direction you wanted to go in.
    If we worked in a legislative format, then there would be 
the give and take of a process like this. If that was rejected, 
then the course of action was going to be regulation from an 
Administration that said it was committed to working from a 
regulatory perspective.
    The legislative approach was rejected by the Republicans, 
just rejected, even though that bill, Waxman-Markey, had $200 
billion in it for carbon capture and sequestration. Can I say 
that again? For the coal industry, we built in $200 billion for 
the coal industry for carbon capture and sequestration.
    The Republican side said, no, we do not want any 
legislation. Fine, that is your choice, but we also said to 
them, simultaneously, the only alternative is regulation. That 
is where we are today.
    That was the choice of the climate deniers or those who do 
not want any legislation to pass at all or for anything to be 
done about it because there is no alternative that has ever 
been presented by the other side. That is why we are here.
    We are here because of a choice made by the Republican side 
of the aisle. We should be debating legislation, not 
legislation to stop the regulation but legislation to do 
something about climate change. That has not been forthcoming 
from the Republican side thus far. That is why we are in this 
debate.
    The only sentiment that we hear from the Republican side is 
that they do not want to do anything. I think Senator Merkley's 
amendment once again highlights the danger of going forward in 
the scientific consensus that has been developed, not only in 
our country, but around the world.
    Every single National Academy of Sciences of every single 
country in the world agrees that humans are causing a 
substantial part of the dangers of global warming and we have a 
responsibility to do something about it.
    Senator Inhofe. We have debated this many, many times. The 
Chair feels you are wrong on that, and you understand. You and 
I know the issue very well. It is debatable. We have had 
hearings on this. Science is mixed on this.
    Senator Merkley, what do you want to do with your 
amendment?
    Senator Boxer. May I be heard?
    Senator Inhofe. You guys can be heard. The Chair is going 
to take the prerogative and make a statement here.
    If you do not want to continue with this hearing, I would 
observe that Senator Whitehouse has an amendment. You have an 
amendment on the other two.
    Senator Whitehouse. I have an amendment on the other two.
    Senator Inhofe. We have other issues and other bills we are 
considering. You have a bill, as I recall, don't you, Senator 
Whitehouse?
    Senator Whitehouse. I do.
    Senator Inhofe. If you just want to stop everything, we can 
do that. The Chair could have the prerogative of being real 
nasty and limiting debate on each one of these. I am not going 
to do that. I am fully aware if you want to stop this hearing, 
you can stop it just by stalling and by using your time.
    Senator Whitehouse. Mr. Chairman, if I might respond to 
that.
    Senator Inhofe. Yes, go ahead.
    Senator Whitehouse. I have absolutely no desire to stop the 
hearing. I would like to have this be a full, thorough airing 
of the issues raised by this legislation. That is what mark ups 
are ordinarily for.
    I do not think when you look at the effects on Rhode Island 
of what we are talking about here, the last one, Mr. Chairman, 
was on sea level rise. Here is a photo of Carpenter's Beach in 
Rhode Island where people's homes were blown to smithereens and 
thrown into the ocean by Sandy. These are people who had their 
houses along that shore all their lives.
    One lady was there as a little kid. She remembers her yard, 
the road beyond her yard, the parking lot beyond the road and 
the long run down to the water where in the summer sun the sand 
would get so hot that she had to hop across the sand.
    Now she is a grandmother. That was one of the houses that 
went into the water. All of that is gone.
    This is an issue that is important to our States, Mr. 
Chairman. I do not think one morning's debate on an issue of 
this importance to our State is frankly asking too much.
    If you look back in history in the Senate, when we worked 
on real legislation in committee, often that committee work 
went on for days, for weeks. I hope one morning is not too much 
for this committee to devote to an issue that means so much to 
us.
    Senator Inhofe. Again, the Chair observes we have had many, 
many hearings on this. This is a markup.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    I would like to vote on this because I think this is a vote 
the American people deserve. Let me comment for a minute on 
something you said.
    Scientists are divided. You are right; 97 percent of them 
say, climate change is real and human activity is the primary 
cause. The others, most of whom work for the oil companies, say 
it is not happening.
    I just want to close my comments with this. If we went to 
the doctor, all of us know, and the doctor said you have 
serious cancer, you need an immediate operation, male or 
female, whoever we are, or if it happened to one of our loved 
ones, we would say this is crazy, I want a second opinion, and 
you got one.
    That doctor said the same thing and you got another one. 
You went to 10 doctors and 9 of them said immediate surgery. 
One says, I do not think this is really happening. You are 
going to listen to the nine.
    All this stuff about I am not a scientist, which thank the 
Lord, we did not hear that today, that was the old saw. Of 
course we are not. Maybe a couple of us are, but not many. That 
is why we need to listen to 97 percent of the scientists and 
discount the ones who work for the oil companies. That would 
leave about 1 percent. This is serious.
    I want to commend my friend. I want this vote on the 
record. I want to know if our colleagues believe that climate 
change is happening and human activity is the primary cause. If 
they vote no, they are siding with 3 percent of the scientists 
versus 97 percent. They are siding against the American people.
    Senator Inhofe. Thank you, Senator Boxer.
    Without objection, I am going to put into the record an 
article written by scientists called The Myth of Climate 
Change, 97 Percent. It was in the Wall Street Journal.
    [The referenced article follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Also, fortunately the people out there are 
a lot smarter than people think they are. Without objection, I 
want to introduce into the record the poll I referred to a 
minute ago.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. The Gallup Poll dated March 12, 2015, shows 
that of the 15 greatest concerns of American people, dead last 
is climate change.
    Senator Merkley, do you want to move?
    Senator Merkley. Yes, I will close my comments if no one 
wants to speak. Do you want to speak?
    Senator Whitehouse. I wanted to make a point to Senator 
Merkley's amendment. Senator Merkley's amendment says the 
following: ``Congress should take under due consideration 
advice from the leading scientific institutions in the United 
States.''
    I agree with our Ranking Member that the scientific debate 
on the core principles of climate change is essentially over at 
this point. There are always strays that can be found around 
the margins, and clearly the majority side in this committee 
has made a very persistent effort to try to round up those 
strays and make them look like they are creating a real 
division in the science.
    One scientist does not a consensus make. If you want to 
look at the consensus, I think it is worth looking for the 
consensus of the scientific entities that we all support, the 
ones that we pay for. That suggests, first of all, many of the 
members here have the good fortune, Rhode Island does not have 
this good fortune, to have a national lab in their home State.
    If you asked the national labs, none of them have any doubt 
that climate change is real and it is happening. I have been to 
some of them. I have reviewed the materials they put out. They 
are studying what is happening to us a result of climate 
change. That is our national labs.
    Look at NOAA, we trust NOAA for the weather. NOAA is 
absolutely clear that climate change is happening, that the 
science is real and that the dispute is not meaningful 
scientifically, not from the point of view of making 
intelligent, prudent risk decisions for the American public.
    NASA could not be more clear on this. They run satellites 
that actually do a lot of the measuring of the changes that are 
actually happening on the surface of the world.
    We can deny that NASA's science is real or we can say that 
NASA's scientists are in on a hoax, but the fact of the matter 
is they have a rover driving around on Mars. That is an amazing 
human accomplishment. They just shot by Pluto and took pictures 
of Pluto. These are pretty serious scientists.
    Senator Inhofe. Senator Whitehouse, I appreciate the fact 
you have a lot of passion on this issue, but I also appreciate 
the fact we have had many hearings on this. There are many 
scientists on both sides, I understand that, but that is not 
the issue here. We have the Merkley amendment.
    Senator Whitehouse. It is, Mr. Chairman.
    Senator Inhofe. I also will observe that the minority can 
very well take all the time they want. I could stop it, but I 
am trying to be fair. We have been on this now for a couple 
hours. We are still on the first bill. We have seven we are 
considering today along with GSA reports.
    You can probably stay with this and stop this hearing, but 
I am going to try my best to continue the hearing and get to 
the other bills for consideration.
    We have the Merkley amendment before us. Is there a motion 
on the Merkley amendment?
    Senator Whitehouse. Does that mean the Chair has rescinded 
my recognition because I had the floor a minute ago, and I was 
commenting on this particular amendment?
    Senator Inhofe. All right, continue.
    Senator Whitehouse. Thank you.
    The other group I think is worth listening to on this is 
the United States Navy. We pay for them. They keep bases all 
around the country and see what is happening. I think the focus 
is important on the leading scientific institutions because as 
Senator Merkley pointed out, leading scientific institutions 
are unanimous.
    I would add that all you have to do is go to home State 
universities, and you will find it is the same. There is a 
thing called Google that we have all discovered around here. If 
you go to the University of Mississippi Web site, the Senator 
from Mississippi talked about sea level rise a minute ago, and 
search within that Web site for sea level rise climate change, 
you see some pretty significant work at the University of 
Mississippi on the connection between sea level and climate 
change.
    The Gulf Coast is particularly vulnerable to sea level rise 
and coastal storms. ``Sea level rise is arguably the most 
critical component of climate change affecting Virginia 
today.'' That is an Ole Miss publication.
    I think if we start listening to the scientific 
institutions, particularly our home State universities, 
including the University of Oklahoma, Mr. Chairman. Berrien 
Moore is the Dean at your university. He has participated in 
this and understands this.
    I think we will have a much better focus than if we are 
grabbing strays, many of whom have financial connections to the 
polluting industry and trying to pretend that they create a 
legitimate alternative debate.
    I yield back my time, and I appreciate the Chairman's 
courtesy.
    Senator Inhofe. Do you have a motion?
    Senator Merkley. Yes. When I opened my statement, I 
described the background, but I want to explain why it is so 
important to me.
    In my home State, we have our rural resources under direct 
attack by changing climate. If you look at the forests, we have 
not only the vast growth of the pine beetle, but we have a fire 
season that has increased by 60 days in 40 years. That is a day 
and a half for every year.
    Our State is, on average, aflame more and more each year. I 
know that California is having the same experience. This has a 
huge impact on our rural communities and our logging and timber 
communities.
    We have also a huge impact on our fishing world. Right now 
there is a die off of hundreds of thousands of sockeye salmon 
as they are going from the Columbia to the Snake River because 
the average temperature is 6 degrees higher than it usually is. 
The fish cannot tolerate it.
    We have very, very small streams coming out of the Cascades 
because the glaciers and snow pack have disappeared from the 
Cascades, the result being that if you care about fishing for 
trout, you have very warm, very small streams. That is not 
healthy.
    If you care about the shellfish industry, the increasing 
acidity of the Pacific Ocean is affecting our shellfish and 
reproduction of our oysters. If you care about farming, our 
entire Klamath agricultural basin is in drought and has been in 
three of the worse ever droughts in a period of about a decade 
and a half.
    My point is that, it is not just sea level rise. It is 
affecting timber, farming, fishing, and shellfish. This is 
profoundly important. It is why I want us to listen to the 
advice of the leading scientific institutions.
    Thank you, Mr. Chairman.
    Senator Inhofe. Do you have a motion?
    Senator Merkley. My motion is to adopt Merkley Amendment 
No. 1.
    Senator Boxer. I would like to put something in the record. 
I will take me 25 seconds. It is in answer to your poll. This 
is a series of polls. The top one is Stanford.
    A Stanford poll in January of this year found 83 percent of 
Americans, including 61 percent of Republicans, say if nothing 
is done to reduce emissions, global warming will be a serious 
problem, and the Federal Government should be doing a 
substantial amount to combat climate change. That is why I 
support the Merkley amendment.
    May I put this in the record?
    Senator Inhofe. We will make that a part of the record.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. I assume you want a vote.
    Senator Merkley. Yes, please, Mr. Chairman.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. No.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Crapo.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment fails.
    At this point, I would like to recognize, for a change, one 
of the Republicans, to make a comment. Senator Barrasso, do you 
have a comment to make about the proceeding?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    To the point of the Senator from Massachusetts who said, 
where is your plan, under Lisa Murkowski, Chairman of the 
Energy Committee, we just passed a bipartisan energy bill, 
clean energy bill. Your colleague from Massachusetts voted for 
it. It passed 18 to 4.
    It was the first time an energy bill has come forward in a 
long time. It was a Republican-led committee that has done 
that, 18 to 4. Two Republicans voted against it and two 
Democrats voted against it.
    It is focused on clean energy and energy legislation which 
will actually help our economy and help our country because we 
all want reliable, clean and affordable energy. People say 
science is science, but I say math is math.
    The emissions in this country have been on the downturn for 
the last 10 years. We have a lot fewer emissions now than we 
had 10 years ago. Emissions have been going down. U.S. 
emissions are only 15 percent of global emissions. The rest of 
the world puts out 85 percent of the emissions. You could turn 
off the United States tomorrow, and it is not going to change 
what is happening globally with increasing emissions.
    The math is the math in terms of renewable energy. Only 4 
percent is from wind, and 1 percent is from solar. The biggest 
problem in getting the wind from where the wind blows to where 
the people live who want that electricity is the 
environmentalists who are blocking the building of the 
transmission lines to carry that energy.
    We have incredible wind capacity in Wyoming. The 
transmission lines have been blocked by environmentalists. I 
say science is science, and math is math. The numbers say 32 
States oppose what the President has just come out with because 
they realize the impact on the reliability of energy, the 
affordability of energy and jobs in their communities.
    You talk about healthy forests. We have environmentalists 
who are blocking healthy forest initiatives which would 
actually go in there and clean out dead trees and make it less 
likely that a forest fire would occur.
    These places are tinderboxes ready to go up. The efforts to 
make things better are being blocked. Now the President comes 
out with his initiative which I believe is a national energy 
tax. To me, this is regulation without representation.
    The attacks on affordable energy are huge. You say how does 
this impact the average person? How many families are looking 
forward to paying higher electricity bills under these 
proposals because that is what is going to happen.
    You will have more people out of work. It will hurt the 
most vulnerable. Yet in terms of the big picture, it is not 
going to help the environment. The costs are real; the impacts 
are unproven.
    The President seems to always exaggerate the benefits and 
ignore the costs. That is why I put out this report, Red Tape 
Making Americans Sick. EPA rules cost Americans their jobs and 
their health.
    When we hear about getting people from the known 
institutions here, we had someone from Johns Hopkins University 
to testify that the unemployment rate is well established as a 
risk factor for elevated illness and mortality rates, with 
influences on mental health, suicide, alcohol abuse, drug 
abuse, spouse abuse, unemployment and an important risk factor 
of heart disease, all of this when you put a community out of 
work.
    We have a headline here from the Gillette, Wyoming, 
newspaper, State Could Lose Up to 11,000 Coal Jobs If Obama 
Plan Takes Effect. Eleven thousand coal jobs are good jobs. 
People want these jobs. As people sometimes retire, they try to 
get their children to have these jobs. They have very safe 
working conditions, pay a lot of attention to safety and 
provide affordable energy all across the country.
    I would say, Mr. Chairman, I am here in support of my 
friend from West Virginia and her legislation, Affordable 
Reliable Energy Now. I am going to continue to vote against 
these amendments that come forward that would weaken her 
proposal.
    I want to thank you, Mr. Chairman, for giving me the time 
to speak.
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. The Chair is going to respond.
    I think maybe the only thing you did not address was the 
fact that the Director of the EPA appointed first by President 
Obama agreed with what you just said, the fact that if we do 
these things unilaterally in the United States, it is not going 
to have an effect to reduce emissions worldwide.
    In fact, it could increase them because as we chase our 
manufacturing base to other countries where they have no 
restrictions, we could actually increase worldwide 
CO<INF>2</INF>.
    I am going to ask how many amendments want to be heard. You 
have two, Senator Whitehouse has two. How many do you have?
    Senator Merkley. I have two more.
    Senator Inhofe. Two. Senator Markey, do you have amendments 
to be heard?
    Senator Markey. Yes, I do.
    Senator Inhofe. How many?
    Senator Markey. I have three more amendments that are 
pending, but I think Senator Whitehouse is ahead of me.
    Senator Inhofe. I know that. I am trying to figure out what 
to do.
    Senator Markey. I will cut it down to just one additional 
amendment.
    Senator Boxer. Mr. Chairman, I will not offer my amendment 
until this gets to the floor, if it gets to the floor. I do 
want to respond in just one brief moment to the speech by my 
friend from Wyoming.
    I come from a State that has probably the strongest carbon 
rules in the nation, a cap-and-trade system that was demeaned, 
all kinds of charges were made of how electricity prices were 
going up and jobs were going down and poverty was going up.
    I am going to put in the record a fact sheet. California 
households pay the ninth lowest electricity bills in the 
country, lower than Oklahoma. Under California's climate 
program, we receive a twice a year climate credit.
    California's household monthly energy bills are far cheaper 
than Oklahoma. In 2013, the Energy Information Administration 
found California's monthly residential electricity bill average 
$90 compared to Oklahoma's monthly bill of $110.
    California's overall monthly energy bills are among the 
cheapest in the country. California created a budget surplus 
with cap-and-trade. We went from a terrible deficit, and we are 
now in a surplus with the leadership of our Governor and our 
legislature.
    California's rate of job growth is better than the country 
during cap-and-trade. We are a leader in green jobs, in solar 
jobs and wind. On some days, 50 percent of our energy comes 
from the sun.
    For people to say that this is one scary future, take a 
look at the State that is doing it, 40 million people strong. 
The oil companies came in and tried to get us to repeal our 
laws, and we beat them back. It is real, and that is why I 
oppose what my friend is trying to do in West Virginia, to take 
us back.
    Senator Inhofe. Without objection, I am going to enter one 
thing into the record that refutes everything Senator Boxer 
just said about California.
    Senator Boxer. Let us put it next to mine and people can 
judge.
    Senator Inhofe. That is fine.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. By your word, we are going to have five 
more amendments. I would like to ask, if there is going to be 
objection, if we can confine our remarks on these amendments 
and discuss the amendments to 7 minutes. Would that be 
reasonable?
    Senator Whitehouse. Per amendment?
    Senator Inhofe. Per amendment. What amendments of the five 
are left?
    Senator Whitehouse. There are very few of us at this point 
here. Again, this morning does not seem to me, Mr. Chairman, to 
be an inordinate amount of time to dedicate to an issue of this 
magnitude.
    Senator Inhofe. OK. Do you have an amendment you would like 
to offer?
    Senator Whitehouse. I do. I do not think this would weaken 
the bill but understanding, no matter which side you are coming 
from, it would, I think, help establish that we either are or 
are not working off a common predicate of facts.
    Senator Inhofe. Which amendment is it?
    Senator Whitehouse. My amendment is Whitehouse Amendment 
No. 2.
    Senator Inhofe. Whitehouse Amendment No. 2.
    Senator Whitehouse. It is not the least bit uncommon, Mr. 
Chairman, for legislation to come through the Senate with 
findings. It is actually quite common for findings of fact and 
congressional findings to precede a piece of legislation that 
explain the rationale for the legislation.
    This would not change the substance of Senator Capito's 
legislation in any way. It would put on the front a findings 
section expressing the sense of the Senate that one, climate 
change is real and not a hoax; two, human activity contributes 
significantly to climate change; and three, the Federal 
Government--for the record I will say that means broadly 
whether you want that to be Congress, the President or 
administrative agencies, I mean broadly the Federal Government 
not a specific agency--has a responsibility to act.
    I think that is the virtually unanimous consensus of 
everybody not affiliated with the fossil fuel industry who has 
taken a serious look at this question. It is certainly the 
strong sense of the American electric, and it is a very strong 
sense in my home State of Rhode Island.
    I do not think it affects the bill in any way. I hope that 
it can get a strong bipartisan vote in favor.
    [The text of Whitehouse Amendment No. 2 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Thank you, Senator Whitehouse.
    You have heard the explanation of the amendment. Those in 
favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Whitehouse. May I have a roll call vote?
    Senator Inhofe. Yes, of course.
    Senator Whitehouse. Unless there is anyone who wishes to 
make a comment on it, I move the amendment and ask for a roll 
call vote, if not.
    Senator Boxer. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment fails.
    Other amendments? We are down to four now.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Chairman, I have Markey Amendment No. 6 at the desk.
    Senator Inhofe. You are recognized.
    Senator Markey. Thank you very much, Mr. Chairman.
    We have heard a lot about job loss in the coal industry 
which has been a fact for the last 30 to 40 years. A lot of 
that just has to do with innovation, has to do with automation. 
There are huge vehicles that now come in and can dig out tons 
and tons of coal which have put tens of thousands of coal 
miners out of business. It is automation. It is new technology. 
It is innovation.
    There are some that wanted to stop that so we did not have 
that progress in coal country, but it is just the way it is. 
That is what has been killing coal jobs, combined with the 
incredible increase in the use of natural gas as a way of 
generating electricity in our country. That is the war on coal. 
The war on coal is natural gas.
    It is cleaner, and in most parts of the country, less 
expensive. Economics 101 moves utilities toward natural gas. 
Economics 101 moves the coal industry toward larger vehicles 
that dig out more coal with less use of human beings. That is 
what has been happening.
    If I felt there was a sincere effort to seek a level 
playing field in the creation of new jobs and new energy 
industries, that would be one thing, but that does not exist. 
The Republicans oppose the extension of the wind tax break. 
That is off the books now because of the Republican Party.
    What is wind in the United States of America? By the end of 
next year, even without the tax break, it is essentially 80,000 
megawatts, it is 80,000 jobs in America which will start to 
slowly but surely go right down because there is no plan by the 
Republicans to put a tax break on the books for wind.
    How about solar? Solar, in the United States, installed 
only 79 megawatts in the year 2005; last year, 7,000 megawatts, 
100 times more; this year, 8,000 megawatts; and next year, 
12,000 megawatts. In other words, there will be double the 
amount of solar in 2 years as was produced from the beginning 
of time until the end of 2014.
    That is moving fast, but the tax break for solar expires 
next year. What do we hear from the Republican Party about how 
much they are willing to keep the tax breaks for solar and the 
tax breaks for wind on the books?
    By the way, by the end of next year, 210,000 jobs in the 
solar industry will exist. Between wind and solar, there will 
be 300,000 jobs. There are only 80,000 coal miners in America. 
This is the fast growth, job creating sector of the American 
economy creating jobs 10 times faster than any other sector in 
our economy. That is where we are.
    By the end of next year, combined, there will be 120,000 
megawatts of wind and solar in America, but the tax breaks will 
have expired if the Republicans do not step up with their plan. 
They say, well, it is only 5 percent of all electricity now 
coming from the renewable sector. Yes, that is up pretty much 
from zero in 2005.
    It is moving. It is like the deployment of cellular phones. 
You did not have one in your pocket in 1994. In 1996, all of a 
sudden, you did.
    If you are basically going to be interpreting how fast 
things change, whether or not you had an iPhone 5 years ago and 
whether or not you have one today, you are not looking at the 
right way of looking at innovation and how quickly it is 
adopted after it is introduced into our economy.
    My amendment says the polluter protection plan we are 
debating here today does not go into effect if the EPA 
Administrator and the Secretary of Energy determine that it 
would have a negative impact on clean energy jobs being created 
in our country.
    On one side, there has been an inexorable decline, the coal 
industry, not this year, not last year, because there is no 
energy plan, there is no plan on the books to reduce greenhouse 
gases right now.
    It has been going down, but it has been going down without 
Congress having acted, but there has been a dramatic increase 
in clean energy jobs.
    That is really the heart of my amendment. It says, let us 
keep innovation going. Let us be moving from this old 19th 
century technology, not by saying anything other than we are 
going to keep the incentives on the book for clean energy as 
well, a level playing field.
    The old tax breaks stay on the books; the coal tax breaks 
stay on the books. What goes away is the wind and solar. That 
is the unlevel playing field that we have seen for 100 years in 
this country.
    Finally, during the Obama administration, we have seen it 
unleashed. What is happening is now called a threat, not to our 
economy, however, because of prices collapsing in renewable 
energy, and the dramatic increase in the number of jobs that 
have been created.
    My amendment says this bill cannot go into effect until the 
EPA and the Department of Energy determine how many jobs will 
be lost by this bill. I urge an aye vote.
    [The text of Markey Amendment No. 6 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Thank you, Senator Markey. You do have a 
minute left.
    Senator Capito, would you like to respond?
    Senator Capito. Yes. I was just going to say that in the 
bill I encourage Governors of each State to analyze the impacts 
of those clean energy jobs and other jobs that are created and 
sustained by the coal or natural gas industry. I think it is 
repetitive. I do not think we need it.
    The other thing I would say briefly on wind is we have 333 
windmills in my State. That is not easy to get those permitted 
and put into effect.
    I would also say that 32 State Governors have been 
opposition to this. We passed a bipartisan energy bill last 
week that addresses a lot of the renewable issues.
    Thank you.
    Senator Inhofe. Senator Markey moves his bill. Is there a 
second?
    Senator Whitehouse. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment fails.
    I would observe we are down to seven people. If we lose one 
more person, we will not be able to vote on amendments. We are 
also down to three more amendments. Do you have an amendment 
you would like to offer?
    Senator Whitehouse. I do, Mr. Chairman. I would like to 
call up Whitehouse Amendment No. 1.
    Senator Inhofe. Whitehouse Amendment No. 1, you are 
recognized.
    Senator Whitehouse. Whitehouse Amendment No. 1 is similar 
to the health amendment that Senator Markey offered earlier. It 
requires a similar alternative method of getting to the point 
before the Capito legislation would go into effect, although 
this is not focused on the health aspect. It is focused on the 
oceans aspect. Let me explain why that is.
    Our friends have said that the climate is always changing, 
and therefore climate change is not significant. Yes, the 
climate is always changing in geologic time. We have never seen 
anything in the history of our planet, of human beings on it at 
least, where we have seen a change as rapid as we have in terms 
of the carbon pollution of our atmosphere.
    We have been on the earth for about 200,000 years as a 
species. If you measure back 800,000 years through air trapped 
in ice and other ways they have of actually measuring this, 
they see the carbon concentration in the atmosphere has been 
going up and down and up and down fairly regularly between 
about 175 and 300 ppm.
    That is the whole history of our species on the planet 
until the Industrial Revolution. Suddenly, it breaks out. Now, 
for the first time ever, measurements are over 400 ppm in the 
atmosphere.
    That has a lot of climate effects that we see, but it also 
has some very important ocean effects. You can go to a lab and 
raise the concentration of CO<INF>2</INF> in a container with 
saltwater and see the pH drop of the saltwater. It will 
acidify.
    That is why Senator Merkley's oyster farmers got wiped out 
when heavily acidic ocean water came in. The water was so 
acidic that the young oysters could not make their shells. We 
are starting to see that in the Northeast.
    It is a very big deal for Alaska because of what it is 
doing to something called the tetrapod, a very important sea 
snail called the sea butterfly, that is a huge part of the 
salmon diet. The sea is becoming so acidic that the shells are 
not being able to be made in the same way. It is very powerful 
scientific work and undisputed on that subject.
    You can argue up and down about climate, but you cannot 
argue about acidification. That is happening, and it is 
directly related to the carbon concentration.
    What happens also is because of the climate piece, the 
oceans warm, and we measure that. This is not theory. We 
measure that with thermometers. It is not complicated. Children 
can do it. All you have to do is keep track, and you can see 
the trend.
    The oceans are warming, and that really affects our 
fishermen. Winter flounder fishery is basically gone. Fishermen 
come in to say to me, Sheldon, it is getting weird out there. 
Sheldon, this is not my grandfather's ocean any longer.
    The lobster is moving to cooler waters. We are seeing 
things people have not seen before that our fishermen have to 
contend with.
    The third piece of that is when the ocean warms, it 
expands. That is called the Law of Thermal Expansion. I doubt 
anybody on this committee would dare to quarrel with that.
    As this massive ocean warms, it lifts and rises. That is 
why at Naval Station Newport, they measure 10 inches of sea 
level rise since the 1930s. If you do not trust me, trust the 
Navy. They have given briefings on what goes on at their ports 
because their ports exist at the intersection of sea and land.
    If you cannot trust the United States Navy on this, if you 
cannot trust companies like Wal-Mart on this, I do not know who 
you can listen to. These things are really happening. There are 
the influences on climate that are beyond the control of 
humans; this is an influence that is not beyond the control of 
humans.
    It is happening so much faster, so much more rapidly and 
blowing us out of the traditional limits that the influences 
beyond human control have kept us in, that we really need to 
pay attention to this.
    This is really important to my State. We are seeing all of 
these things. We are seeing the acidification begin to happen. 
Every third grade class in your States that has an aquarium 
takes a pH test of the aquarium to make sure it is good for the 
fish.
    The testing on this is really not much different than that. 
It is simple, it is undeniable and you can replicate it in a 
lab. Every national lab agrees with it. NOAA agrees with it. 
You really are not going to find anyone respectable who 
disagrees with that, because it is impossible to disagree with.
    The warming is measured by NASA satellites. I know your 
side wants to defund the NASA satellites so that they cannot 
tell us what is happening any longer because it is inconvenient 
for certain special interests, but that is a dumb way to go.
    We should actually be listening to NASA, not trying to 
defund the information they give us. When that happens and the 
temperatures warm, the sea level rise is inevitable.
    Please, if you have a genuine interest in this, go to 
Google and look up Rhode Island hurricane of 1938. Take a look 
at some of the pictures of what happened. Go to the American 
Experience clip on NPR--it is an hour long--on what happened in 
Rhode Island and nearby with the hurricane of 1938.
    Then think to yourself what is going to happen to Rhode 
Island when that next big one comes and there are 10 more 
inches of sea level to be thrown like a hammer against our 
shores, plus whatever extent it gets stacked by sea level rise.
    Please accept how important this is to us and how very real 
the science is behind this, virtually undisputed on the oceans 
front.
    Thank you.
    [The text of Whitehouse Amendment No. 1 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Will you yield?
    Senator Whitehouse. It is the Chairman's prerogative I 
believe, but yes, of course, I will. I yield back.
    Senator Markey. The Senator from Rhode Island represents 
the Ocean State. I represent the Bay State. What do we have 
right above us? We have Greenland. Again, Greenland with an ice 
block at its peak that is 2 miles high and it is melting.
    There was a block of ice that broke off the size of 
Manhattan from Greenland and went into the ocean just a couple 
years ago. The year before, a block of ice broke off Greenland 
four times the size of Manhattan and went into the ocean.
    This is the Atlantic Ocean where Senator Whitehouse, 
Senator Gillibrand and I represent. If the ice starts breaking 
off Greenland and goes into the ocean, there is no place to go, 
and it results in flooding, higher temperatures, more water 
hitting our coastline. That is the phenomenon. That is what is 
happening to us. That is what Massachusetts v. EPA decided in 
its decision.
    I ask for an aye vote on Senator Whitehouse's amendment 
just so you can protect us against this ice going into the 
water and endangering our coastlines.
    Senator Whitehouse. I move the amendment.
    Senator Inhofe. Is there a second to the Whitehouse motion?
    Senator Boxer. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Booker.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mrs. Fischer.
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman.
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment fails.
    We are down to two amendments. I appreciate the cooperation 
of everyone.
    Senator Boxer, do you have an amendment? We are down to two 
amendments. We are running out of people. We do not have the 
small quorum of seven to pass. It looks like people are 
leaving.
    Senator Boxer. Let me just say publicly what I told you 
privately.
    I think this has been a really good and fair debate. We are 
ready to vote on this, but as I told the Chairman, what is very 
disturbing to our side is the fact that the other bill you have 
on here, which would say for the first time since I believe 
2011, if you spray pesticides on water, you do not have to get 
a Clean Water Act permit.
    We have not had a single hearing on that bill, not one 
hearing. You are marking up today, and we know what is going to 
happen. It is not right.
    I made a suggestion to my friend, and he is my dear friend, 
that we reschedule that plus a Democratic bill and then move on 
with the rest of the agenda. He has made some commitments, and 
he cannot join me.
    I am very sorry to say that we are not going to have a 
quorum here. My recommendation is that we put that markup off, 
that we take a Democratic bill so we pair, and that we have a 
hearing on that really important bill that would expose our 
kids and grandkids and our families to pesticides in water and 
allow willy nilly spraying.
    It is not right to do that without a hearing. It is not 
right, so I cannot give you a quorum because it is just unfair.
    I am happy to give you a quorum for my friend from West 
Virginia. I think this has been a terrific hearing. I think it 
has been emotional and difficult, but we got through it. You 
are right, we have had many hearings on that. If we could put 
that off until we get back, I think that would be fine. 
Otherwise, we are not going to give you the quorum, but you can 
get the quorum with all your members, to my understanding.
    Senator Inhofe. Let me just observe that in the last 
Congress when the Republicans were a minority, Senator Boxer 
had S. 2963, a bill to address discharge limits from large and 
small vessels reported through committee on a party line vote 
with no hearing.
    This was actually a controversial bill among the coastal 
State Senators and will be argued again in this Congress. This 
has happened before. We have posted our agenda. We have that 
bill to take up. It is Senator Carper's bill.
    I would observe this. Right now, we are ready for a vote 
but we do not have 11 people here for a majority. I think there 
is an effort right now to get 11 people so we can at least get 
the Capito vote taken care of.
    If you will bear with me and stay here for that, if the 
Democrats choose to walk out and not consider other amendments, 
there is very little we can do. There is nothing we can do 
about it, but I would like to hear from Senator Crapo since we 
are talking about his amendment. Do you have any thoughts while 
we are waiting for a quorum?
    Senator Crapo. Yes, Mr. Chairman.
    I just want to respond briefly to Senator Boxer. I hope we 
can move to the legislation that I have brought today. The 
legislation is bipartisan legislation. I just wanted to correct 
one statement that Senator Boxer made.
    She said that if this legislation passes, there will be no 
protection for the application of pesticides. There already is 
a full regime under FIFRA for the application of pesticides. 
This question is whether to add a duplicate system to the 
process.
    It is the result of the court case that, on a bipartisan 
basis we have agreement, creates an unnecessary, burdensome, 
expensive and duplicate system of regulation. Even the EPA has 
said it does not need to have this duplicate regulation.
    I just had to clarify that this legislation does not 
eliminate the regulation of pesticides. It simplifies it to one 
system which is the system that EPA itself has said we need to 
utilize.
    Senator Inhofe. Thank you, Senator Crapo.
    Senator Fischer has arrived. We are talking about your 
bill. Let me bring you up to date on where we are.
    We are waiting for a quorum to come down so we can have the 
vote, final passage and send to the floor the Capito bill. We 
are starting to gain some members now.
    Senator Boxer. Mr. Chairman, could I be heard on your 
comment about our bill that we did without a hearing?
    Senator Inhofe. You can be heard on that but first, with 
respect to Senator Fischer, if she has something to say about 
the bill that apparently is going to be boycotted by the 
minority.
    Senator Fischer.
    Senator Boxer. Mr. Chairman, I just have to say in due 
respect as the Ranking Member here, all I wanted to do is make 
a point of clarification because you said that we did something 
without a hearing. The fact is you withheld a quorum. You 
withheld a quorum, and we are going to withhold a quorum. I am 
going to leave because I do not want to be the only one.
    I just want to say putting people in danger is the wrong 
thing to do. If you do not have a hearing, what does that tell 
you? This whole notion that EPA is behind this does not make 
any sense to me. They have not told me that in any way, shape 
or form.
    This has been in place since 2011 and has not caused any 
problems to my knowledge. I am going to be leaving now, urging 
you, Mr. Chairman, that we will come back if you will put this 
off, and we will put off another Democratic deal. You withheld 
a quorum when I did that once, and we are going to do exactly 
what you did.
    Senator Inhofe. OK. All right, Senator Boxer, I think we 
know where we are on this. I would still like to make an 
attempt while we are voting today, it is my understanding we 
will have votes, that we can have an off the floor vote on the 
final passage of the Capito bill in this committee.
    We are going to make an effort to do that. However, since 
we have now been boycotted by the minority, we will have to 
postpone the rest of this hearing until probably after the 
recess.
    Technically, we are going to recess until the call of the 
Chair. Hopefully, we will be able to handle that from the floor 
during the vote.
    We are now in recess.
    [Whereupon, at 12:08 p.m., the committee was recessed 
subject to the call of the Chair.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]







</pre></body></html>
